BECKER GALLAGHE R
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Reply Brief for Petitioners in 19-1339,
Kansas City Royals Baseball Corp., et al. v. Aaron
Senne, on behalf of himself and all others similarly
situated, et al., were sent via Next Day Service to the
U.S. Supreme Court, and e-mail service to the
following parties listed below, this 2nd day of
September, 2020:
Robert L. King
Garrett R. Broshuis
Korein Tillery LLC
505 North 7th Street
Suite 3600
St. Louis, MO 63101
(314) 241-4844
rking@koreintil lery.com
gbrosh uis@koreintiller y.com
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

, www.beckergallagher.com

I 8790 Governor's Hill Drive
Suite 102
· Cincinnati, Ohio 45249

I

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Paul D. Clement
Counsel of Record
Erin E. Murphy
Matthew D. Rowen
Joseph C. Schroeder
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Elise M. Bloom
Adam M. Lupion
Mark D. Harris
Proskauer Rose LLP
Eleven Times Square
New York, NY 10036
(212) 969-3000
Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 2, 2020.

DonnaJ. WolV Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~6*

~ ~ J-, d-0 0-0

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

